2311 Douglas Street
Omaha, Nebraska 68102-1214

@OCKLE

al Bri E-Mail Address:
L © 8 B © fs contact@cocklelegalbriefs.com

Est. 1923
1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com
Fax: (402) 342-4850 No. 19-518

COLORADO DEPARTMENT OF STATE,
Petitioner,

v.
MICHEAL BACA, POLLY BACA,
and ROBERT NEMANICH,
Respondents.

AFFIDAVIT OF SERVICE

I, Andrew Cockle, of lawful age, being duly sworn, upon my oath state that I did, on the 2nd day of April, 2020, send out
from Omaha, NE 2 package(s) containing 3 copies of the BRIEF OF AMICI CURIAE PRESIDENTIAL ELECTORS MARY
BETH CORSENTINO, STRATTON ROLLINS HEATH, JR., AND CELESTE LANDRY IN SUPPORT OF PETITIONER
in the above entitled case. All parties required to be served have been served by third-party commercial carrier for delivery
within 3 calendar days. Packages were plainly addressed to the following:

SEE ATTACHED
To be filed for:

CHRISTOPHER M. JACKSON JAMES G. SAWTELLE

Counsel of Record JAMES S. KORTE
JESSICA J. SMITH SHERMAN & HOWARD LLL.C.
JOSHUA M. HALEN 633 17th Street, Suite 3000
HOLLAND & HART LLP Denver, CO 80202
555 17th Street, Suite 3200 (303) 297-2900
Denver, CO 80202
(303) 295-8000 Counsel for Amici Curiae

emjackson@hollandhart.com

Subscribed and sworn to before me this 2nd day of April, 2020.
Tam duly authorized under the laws of the State of Nebraska to administer oaths.

My Comm. Exp, September 8, 2023
z Notary Public 7 Affiant

 

GERERAL MOTARY-State of Nebraska 4
A RENEE J. GOSS Q. Loon’ Vedra Kh, Gh,

3966T-

 
SERVICE LIST

Eric R. Olson

Solicitor General

Colorado Department of Law
1300 Broadway, 10th Floor
Denver, CO 80203

(720) 508-6548
eric.olson@coag.gov

Counsel for Petitioner

L. Lawrence Lessig
Equal Citizens

12 Eliot Street
Cambridge, MA 02138
(617) 496-1124
lessig@law. harvard.edu

Counsel for Respondents
